Report No. D-2008-003         October 16, 2007




Auditability Assessment of the Defense Intelligence
             Agency Fund Balance with
      Treasury and Appropriations Received
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DIA                   Defense Intelligence Agency
FBWT                  Fund Balance with Treasury
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                           October 16, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE INTELLIGENCE AGENCY

SUBJECT: Auditabi1ity Assessment of the Defense Intelligence Agency Fund Balance
         with Treasury and Appropriations Received (Report No. D-2008-003)


       We are providing this report for information and use. This audit was preformed in
support of the requirement by the Senate Select Committee on Intelligence that the
Defense Intelligence Agency must prepare financial statements capable of withstanding a
comprehensive audit. We considered management comments on a draft of this report
when preparing the final report.

       The Defense Intelligence Agency and Defense Finance and Accounting Service
Indianapolis Operations comments generally conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments on the final report are not required.

        We provided oversight to Urbach Kahn & Werlin LLP, Certified Public
Accountants, an independent public accounting film that the Defense Intelligence Agency
contracted with to perform an auditability assessment of its Fund Balance with Treasury
and Appropriations Received. We performed our oversight in accordance with the
requirements in the Government Accountability OfficelPresident's Council on Integrity
and Efficiency Financial Audit Manual, Section 650. We concur with and fully support
the findings, conclusions, and recommendations in this report, and we will followup on
these recommendations as part of our normal followup procedures for our reports.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 325-5777 (DSN 221-5777). See Appendix B for the
report distribution. The team members are listed inside the back cover.



                                          ")i '
                               By direction of the Deputy Inspector General for Auditing:


                                       /1~/ ~-./[.//A~
                                             /
                                                      C,   ~T--"
                                         Pa J. Granetto, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-003                                                    October 16, 2007
   (Project No. D2006-D000FA-0263.000)

        Auditability Assessment of the Defense Intelligence Agency
        Fund Balance with Treasury and Appropriations Received

                                 Executive Summary

Who Should Read This Report and Why? Financial management officials at the
Defense Intelligence Agency (DIA) and the Defense Finance and Accounting
Service (DFAS) who establish policy and compile the annual financial statements should
read this report. It shows areas where DIA and DFAS can improve the reliability, and
future auditability, of the DIA annual financial statements.

Background. This audit supports the requirements of the Senate Select Committee on
Intelligence Report 107-63, “Authorizing Appropriations for Fiscal Year 2002 for
Intelligence and Intelligence-Related Activities of the United States Government,”
September 14, 2001, which required DIA to receive an audit of its financial statements by
the Department of Defense Inspector General or a qualified Independent Public
Accounting firm under the direction of the Department of Defense Inspector General.
This report is one of several audit reports issued to assist DIA in identifying deficiencies
that need to be corrected in order to achieve more effective internal controls and a
favorable audit opinion.

To further assist DIA in preparing for a comprehensive audit of its financial statements,
DIA contracted with Urbach Kahn & Werlin LLP, Certified Public Accountants, to
perform an auditability assessment of its Fund Balance with Treasury (FBWT) and
Appropriations Received line items. We provided comprehensive oversight of this
assessment and concur and fully support the findings, conclusions, and recommendations
included in this report.

Results. The auditability assessment found several critical impediments during its
assessment of internal controls and testing of the DIA FBWT and Appropriation
Received line items. The impediments included the inability to identify the DIA share of
DoD undistributed disbursements and collections; the materiality of the undistributed
balance for DIA at the suballotment level; and no established process to ensure all DIA
limits are captured in DFAS monthly reports and the Cash Management Report process.
In addition, DIA did not report funding authorization documents in the proper accounting
period; the DFAS accounting and reporting system did not contain complete voucher data
for reconciliation purposes; and the DFAS plan of actions and milestones and the service
level agreement with DIA were not specific enough to meet DIA needs.

DIA in collaboration with DFAS can improve the reliability of the DIA FBWT and
Appropriations Received line items by establishing an Integrated Process Team to
coordinate corrective actions related to the auditability impediments. In addition, DIA
should limit the number of disbursing stations with authority to disburse DIA funds;
initiate a direct feed from DFAS systems to the DIA accounting system to facilitate the
reconciliation and reporting of the FBWT line item; develop policies and procedures for
reconciling FBWT and receiving timely information; and ensure personnel involved in
the reconciliations receive training. Also, DFAS should reprogram the Cash
Management Analysis Report 4B and continue coordinating with the Business
Transformation Agency by actively participating on the Business Enterprise Information
Service’s Cash Capability requirements team, and notify DIA and other applicable
Defense agencies of any potential impact on their FBWT reconciliation processes for
planning purposes. Finally, DIA should update its service level agreement with DFAS to
outline each organization’s specific responsibilities.

Management Comments and Audit Response. The Director of the Defense Finance
and Accounting Service Indianapolis Operations and the Defense Intelligence Agency
Deputy Chief Financial Executive for Financial Management (Comptroller) concurred
with the findings and most of the recommendations and plans to take actions to correct
the problems identified. We accept the responses and encourage both organizations to
continue their aggressive actions to correct the impediments to a successful audit. See
the Findings and Recommendations section of Appendix A for a discussion of
management comments and the Management Comments section of Appendix A for a
complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                             i

Appendixes
     A. Fund Balance with Treasury and Appropriation Received Auditability
          Assessment Final Report                                             1
     B. Report Distribution                                                  49
Appendix A. Fund Balance with Treasury and
            Appropriation Received
            Auditability Assessment Final
            Report




                      1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense for Intelligence Oversight
Director, Program Analysis and Evaluation

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
Director, National Security Agency
Director, National Geospatial-Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
Office of the Director of National Intelligence
  Office of the Inspector General, Office of the Director of National Intelligence

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
                                           49
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
House Permanent Select Committee on Intelligence




                                      50
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Marvin L. Peek
D. David Bose
Jeffrey L. Gongola
Dorothy L. Jones
